 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




MEDICAID MANAGED CARE AND EPSDT 





                    JUNE GIBBS BROWN
                     Inspector General

                         MAY 1997
                       OEI-O5-!&00290
                     OFFICE OF INSPECIYOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95
452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.




                      Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the
Office of Inspector General. It conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The inspection reports provide findings and
recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI’s Chicago Regional Office prepared this report under the direction of William C.
Moran, Regional Inspector General, and Natalie Coen, Deputy Regional Inspector
General. Principal OEI staff included:

REGION                                                             HJXADQUMTERS
Joseph L. Pet&rot (Project Leader)                                       Winnie Walker 

Jean DuFresne 

Erin Fleming 


To obtain a copy of this report, call the Chicago Regional Office at (312) 353-4124.
                 EXECUTIVE                        SUMMARY

PURPOSE

This inspection examines the extent to which Medicaid managed care providers deliver
Early and Periodic, Diagnostic, Screening and Treatment (EPSDT) to Medicaid children.

BACKGROUND

Under EPSDT, State Medicaid agencies must provide eligible children services that
include comprehensive, periodic health assessments beginning at birth and continuing
through age 20. All medically appropriate immunizations are required. Age appropriate
assessments must be provided at intervals following defined periodicity schedules.

State Medicaid agencies have turned to managed care to rein in escalating health care
costs, difficult to do in a fee-for-service environment, while ensuring health care access
for Medicaid enrollees. Medicaid managed care has grown exponentially. Between 1983
and 1995, Medicaid managed care enrollment increased from 750,000 to 9.8 million and
now includes over 400 managed care plans.

FINDINGS

Fewer than one in three Medicaid children enrolled in managed care plans receive timely
EPSDT services. Six of ten receive none at all.

Based on our review, we estimate that only 28 percent of Medicaid managed care
children receive all of the EPSDT screens called for by the periodicity schedule used in
their State. Sixty percent of Medicaid managed care children do not receive any EPSDT
services called for in the States’ periodicity schedules. Older adolescents receive
significantly fewer required EPSDT services than other children. We find no significant
differences in EPSDT performance between health maintenance organizations and
primary care case management plans, or between large or small managed care plans.
We find there is no difference in EPSDT performance if a break in managed care
enrollment occurred.

Most of the visits Medicaid children make to managed care plans are sick visits. In our
review of medical records, when children made sick visits to managed care providers,
only the symptoms that generated the sick visit were treated, with very few exceptions.
There were few visits treating conditions discovered as a result of a previous EPSDT
screen.

Children receive significantly more EPSDT services from Medicaid managed care plans
when states inform the managed care plans which children are due for EPSDT.

A comparison of the EPSDT results in Michigan and Nevada to the others in our sample
shows that there is a very strong statistical difference in managed care plan performance.
These States identify children currently due for EPSDT screens to their managed care
plans and closely monitor EPSDT performance by managed care plans for these children.
In our sample, 54 percent of the Medicaid children enrolled in these plans received all of
their EPSDT services compared to 19 percent of those enrolled in other managed care
plans.

RECOMMENDATIONS

The Health Care Financing Administration should revise their EPSDT reporting
requirements and data collection to emphasize the number of children who receive all of
their EPSDT screens in a timely fashion.

Current EPSDT reporting methods obscure the low EPSDT rates we found, especially
for adolescents. The Health Care Financing Administration (HCFA) should revise their
EPSDT data collection so States identity children of different ages who receive all of the
required EPSDT screens. The HCFA and the States should monitor the age groups to
determine where progress is being made and where additional efforts are required. This
revision will improve EPSDT data collection for both fee-for-service and managed care
programs.

The Health Care Financing Administration should encourage States to actively not@
managed care plans of enrollees due for EPSDT exams and to follow up if EPSDT
services are not rendered shortly thereafter.

Our study dramatically demonstrates the value added to EPSDT performance when
States continue to track and monitor plan performance at the individual patient level.

The Health Care Financing Administration should work with States to ensure timely
managed care EPSDT reporting.

Current State EPSDT reports to HCFA do not distinguish services rendered by managed
care plans. The HCFA collects combined managed care EPSDT and fee-for-service
EPSDT information from States annually. In 1994, HCFA surveyed the States and
discovered that States collect EPSDT data from managed care plans in inconsistent ways.

All managed care plans should report EPSDT services to States in a timely and uniform
manner. At present, managed care plans subcontract with numerous individual
providers. Consequently, reporting of EPSDT services is inconsistent, not always timely,
and underreporting may occur. Without consistent reporting of EPSDT data,
determining whether States meet participation goals becomes problematic.




                                              ii
The Health Care Financing Administration should emphasize to States the need to
define and clarify EPSDT requirements in their Medicaid contracts with managed care
plans.

Our study confirms the findings of earlier studies pointing out the lack of contractual
specificity regarding EPSDT in States’ Medicaid contracts with managed care plans.


AGENCY     C0MMENl.S

We received comments from HCFA and the Acting Assistant Secretary for Health. 

Their comments are included in Appendices B and C respectively. Both fully agree with 

the recommendations.    The Acting Assistant Secretary for Health suggested additional 

recommendations.    These additional suggestions are quite consistent with the 

recommendations in our report. We suggest that HCFA consider them in developing 

their implementation plan. 


We made appropriate    revisions to the report based on their technical comments. 





                                              ...
                                              111
                        TABLE                             OF              CONTENTS

                                                                                                                       PAGE

EXECUTIVESUMMARY 


INTRODUCTION..                  ..............................................                                                1


FINDINGS      .....................................................                                                       7


 �    One in three receive timely EPSDT                               ................................                    7


 �    State monitoring improves EPSDT performance                                            .......................      9


RECXXMMENDATIONS                       ...........................................                                       11 


AGENCYCOMMENTS                         ...........................................                                       13 


APPENDIX 


A: Variance table            .............................................                                              A-l

B: HCFA comments               .............................................                                            B-l

C: Assistant Secretary for Health comments                                       ..........................             C-l
                                           INTRODUCTION

PURPOSE

This inspection examines the extent to which Medicaid managed care providers deliver
Early and Periodic, Diagnostic, Screening and Treatment (EPSDT) to Medicaid children.

BACKGROUND

EPSDT


Congress created the EPSDT program in 196’7to provide initial and periodic
examinations and medically necessary follow-up care for Medicaid-eligible children,

The Omnibus Budget Reconciliation Act of 1989 (OBRA 1989) expanded EPSDT to
cover most Medicaid-eligible children under age 21. In July 199C, the Health Care
Financing Administration (HCFA) established participation goals for EPSDT requiring
that States screen 80 percent of eligible children by 1995. Medicaid provides health care
coverage for more than 20 million children. In 1992, the Assistant Secretary for Planning
and Evaluation estimated that less than half of Medicaid eligible children receive any
Medicaid reimbursed services in a given year.

Under EPSDT, State Medicaid agencies must provide eligible children services that
include comprehensive, periodic health assessments beginning at birth and continuing
through age 20. All medically appropriate immunizations are required. Age appropriate
assessments, known as “screens,“’ must be provided at intervals following defined
periodicity schedules. Additional examinations are also required whenever anyone
suspects the child may have a health problem. Medicaid also covers treatment for all
medically necessary services discovered during EPSDT screening. Preventive, restorative
and emergency dental care is also covered by EPSDT.



Poor children and            their parents comprise 73 percent of the Medicaid population, but
account for only a           third of Medicaid expenditures. The balance is spent on the aged and
disabled. Overall,           the younger Medicaid patients require less care and less costly services
than the aged and             disabled, and very little long-term care.

State Medicaid agencies have turned to managed care to rein in escalating health care
costs, difficult to do in a fee-for-service environment, while ensuring health care access


   I
           States mustprovide for medical, vision, hearing and dental screens. An EPSDT medical screen must include: a comprehensive health
and developmental history, including a physical and mental health assessment; a comprehensive unclothedphysical; appropriate immunizations;
laboratory tests, buluding lead blood level assessment appropriate for age and tik factors, and; health education, including anticipatory
guiailnee.




                                                                     1
 for Medicaid enrollees. The Federal Government encourages the switch to managed
 care by approving Medicaid experiments in some States that require Medicaid recipients
 enroll in managed care plans.

Medicaid hfanaged Care

Medicaid managed care has grown exponentially. Between 1983 and 1995, Medicaid 

managed care enrollment increased from 750,000 to 9.8 million. In 1983, less than one 

percent of Medicaid enrollees were covered by managed care programs. By 1995, 

Medicaid managed care covered nearly 1 in 3 Medicaid recipients. Between 1993 and 

1994, an additional 3 million Medicaid recipients joined managed care programs, a 1 year 

rise of 63 percent, and in 1995 almost 4 million more Medicaid enrollees had managed 

care health care coverage. By June 1995, 44 States, Puerto Rico and the District of 

Columbia had contracted with 403 Medicaid managed care plans to serve almost 10 

million recipients. 


Managed care aims to reduce unnecessary services”, lower health care costs, increase 

access to services and monitor the quality of medical care provided to its beneficiaries. 

At one type of managed care plan - a health maintenance organization (HMO), 

“gatekeepers” direct patients to needed care, usually within the managed care plan.2 

The HMOs receive a contracted amount from the State, a fixed capitated rate per 

member, to provide for the health care of its Medicaid members. The HMOs do not 

submit individual claims for payment for services rendered to the State. Roughly 75 

percent of Medicaid recipients in managed care belong to HMO-type plans. 


A second type of managed care program, Primary Care Case Management (PCCM), also 

uses a gatekeeper to refer patients for necessary services. The PCCMs are reimbursed a 

fixed amount for case management services only. Individual medical services are billed 

on a fee-for-service basis by the individual provider of services. 


Although some basic tenets of managed care - to provide preventive medical services and 

education - mirror those of the EPSDT program, some factors work against Medicaid 

managed care plans delivering EPSDT services to Medicaid children. Managed care 

plans receiving a capitated rate have a financial incentive to deliver fewer services. Since 

EPSDT candidates are generally healthy, not providing required preventive and/or 

educational services can represent a short term way for managed care plans to avoid 

expenses at minimum risk. To discourage these tendencies, some States build EPSDT 

performance measures into their contracts with managed care plans. In addition, 

Federal, State and managed care plan quality assurance activities work to ensure that 

managed care plans and providers fulfill their contractual obligations to deliver 

appropriate medical services. 


The on-again, off-again nature of welfare and Medicaid entitlement                                   is at odds with 


    2
             Other types of numagzd care plans - Prepaid Health Plans and Health Insumnce Organization - are similar to HMOs. For the
purpose   of this evaluation, we treat these types of managed care organizations like HMOs.


                                                                  2
managed health care delivery. Some patients are enrolled for very short periods of time
and do not receive any services from their managed care plan. Some managed care
plans or Medicaid patients may not see any benefit in establishing a medical relationship
that will be short-lived. Likewise, many Medicaid patients use the emergency care system
for their health care needs and are unfamiliar with preventive approaches that managed
care plans use.

Dtmmenhg     EPSDT Services in a Mznaged   Care Setting

In 1991, the Office of Inspector General issued a report entitled “Early and Periodic
Screening, Diagnosis, and Treatment - Performance Measurement” OEI-07-90-00130, that
found, among other EPSDT reporting problems, that children enrolled in Medicaid
managed care plans were considered to have received their EPSDT services strictly on
the basis of their enrollment. Since that time, HCFA changed their policy and now
requires that States report specific EPSDT encounter data for children covered by
managed care plans as well as fee-for-service.

In 1994, HCFA reported that States capture EPSDT data from its capitated plans in
different ways. Some States require HMOs submit “dummy” claims which their systems
would process for tally purposes. Two States require different reporting standards
depending on the capabilities of the HMO to provide data. Massachusetts reconciles
HMO reported amounts by auditing a sample of medical records. States rely on PCCMs
to report EPSDT services accurately to ensure prompt payment for services.

Annually, HCFA collects combined managed care EPSDT and fee-for-service EPSDT
information from States on Form HCFA-416. This report emphasizes the ratio of
EPSDT encounters to the total EPSDT eligible population. The HCFA-416 does not
capture the number of Medicaid managed care children who received all of the EPSDT
visits required by the State for that year. Also, since States report combined managed
care EPSDT and fee-for-service EPSDT information to HCFA, no definitive comparisons
of EPSDT performed by fee-for-service providers and managed care programs exist.

EPSDT and Managed Care Contmcts

State contracts with managed care plans often do not specify EPSDT requirements. A
1995 Children’s Defense Fund study of 100 Medicaid 1991 managed care contracts found
that less than half delineated EPSDT responsibilities. In September 1996, HCFA issued
Integrating EPSDT and Medicaid Managed Care, which also indicates that some State
contracts with managed care plans do not adequately spell out what EPSDT services are
required. This HCFA report cites the managed care contract with States as the blueprint
for patient care, and recommends that States define and specify EPSDT program
requirements. By mandating managed care plan performance in the State contract,
managed care plans would be more likely to specify similar EPSDT details when
contracting with individual providers.

Managed care plans who contract with individual providers must rely on those providers


                                           3

for accurate data. A University of North Carolina study of EPSDT services in North
Carolina indicated many problems with providers’ inaccurate reporting of services. A
managed care plan in Wisconsin reported to us that 1 of 5 providers they audited had
EPSDT documentation problems.


SCOPE AND METHODOIDGY

This inspection analyzes how well Medicaid managed care plans deliver timely EPSDT
services to children. We did not examine managed care services to children with special
health care needs. There are several studies of this area already proposed or underway.
Likewise, we did not focus on specific EPSDT requirements like immunizations, which
has been studied extensively.3 We make no comparisons of the individual managed care
plans sampled in this inspection.

Data Gathering

We base our findings on data we collected from several sources, including interviews with 

State and managed care officials, and a review of a national sample of medical records 

for children enrolled in managed care programs. We used SAS and SUDAAN 

quantitative software plans to assist in our analysis and projections. 


We interviewed State personnel and Medicaid managed care plan managers for the plans 

chosen in our sample. These interviews focused on access and barriers to providing 

EPSDT, including outreach and transportation activities, EPSDT contractual 

arrangements, and reporting and verifying services. 




We examined medical records for a national sample of children covered by Medicaid 

managed care plans. 


To draw the sample, we first stratified managed care plans treating Medicaid-enrolled 

children as of January 1, 1994 into two groups - PCCM model and HMO model. These 

two strata then were further stratified into two more strata - Medicaid enrollees of 50,000 

or more, and less than 50,000 Medicaid enrollees. We compiled our stratified list using 

HCFA data published in the “Medicaid Managed Care Enrollment Report” as of June 

30, 1994. 


We then randomly selected six plans from the large HMO strata, and two from the small 

HMO strata. Two large PCCM plans and two small PCCM plans were also randomly 

selected for a total of twelve plans from all strata. This sampling methodology ensured 

that we have accurate representation from both large and small plans, as well as 



   3
         An April, 1996 Ofice of Inspector General report, “Children’s Dental Services Under Medicaid:   Access and Utilization” (OEI-09-
93-W240) focused on EPSDT dental services



                                                                   4
adequate representation from PCCM-type models for comparison purposes.           The 12 

managed care plans in the sample represent 10 different States. 


The 12 plans selected in the sample provided us with the names of all children in their 

plans who met the criteria of being in Medicaid and under age 21, and who were 

enrolled in their plan for any period of time between January 1, 1994 and December 31, 

1995. From each plan, we randomly selected 30 names, a total sample of 360 children. 

Twenty-two children were subsequently dropped from the sample when we found they 

had less than 4 months of managed care enrollment and had received no EPSDT 

services. Final projections were based on the remaining 338 children in the sample. 


To account for the sampling plan and provide results that accurately reflect the 

distribution of cases in the population studied, all percentages in the report reflect the 

proper weighting of the data. This will also be true of the totals presented. When we 

present sample based results, we identify them. 


Reviewing the Midcal   Records

To examine the extent of EPSDT services actually being performed, we reviewed the
medical records for this sample to see if EPSDT was reported accurately, whether
EPSDT services were provided in line with periodicity schedules, and to make a national
projection of EPSDT services rendered. We did not address issues of quality of care. In
instances where rendering of EPSDT services was in doubt based on the medical records,
we credited the services as having been rendered. We credited EPSDT as being
performed whenever screens were performed or if subsequent treatment resulting from
EPSDT screens took place.

We reviewed the managed care medical records and the State’s fee-for-service data for
each child for at least 6 months prior to and after the study period. In this way, if the
EPSDT services fell outside of our study timeframe, we would credit them as being
performed. By reviewing the fee-for-service billings, we were able to credit any EPSDT
services rendered out of plan.

During the study timeframe of 1994 and 1995, children might require multiple EPSDT
services depending on their age and the State’s periodicity schedule. For example, an
infant requires six EPSDT screens the first year of life in most States. But a 17 year old
may require an EPSDT visit annually or less frequently, depending on the State. Our
analysis accounted for these variables. In determining the age of the child, we used the
age as of January 1, 1995. If not enrolled on that date, we used the age at the period of
coverage.

OtherData   Gathered

We also conducted interviews with 27 physicians randomly chosen from the plans’
directories. We limited these interviews to pediatricians, family practitioners and
internists since these providers would most likely be the primary physicians for children
receiving EPSDT. The physician discussions covered contractual arrangements with the
managed care plan and knowledge of the EPSDT (or by its local name) program.

We contacted all States to obtain copies of any standard contract they use with Medicaid
managed care providers. We analyzed these contracts to determine the extent of
EPSDT-specific requirements.


Our review was conducted in accordance with the QuaZityStandards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                            6

                                     FINDINGS 



Fewer than one in three Medicaid children enrolled in managed care plans receive timely
EPSDT services. Six of ten receive none at all.

Based on our review, we estimate that only 28 percent of Medicaid managed care
children receive all of the EPSDT screens called for by the periodicity schedule used in
their State. Another 12 percent of children enrolled in managed care receive some, but
not all of the EPSDT services they should. Sixty percent of Medicaid managed care
children do not receive any EPSDT services called for in the States’ periodicity schedules.

When we separate these data into age cohorts, we estimate older adolescents enrolled in
Medicaid managed care receive significantly fewer required EPSDT services than other
children.


    Age of Child            Receive all           Receive some           Receive no
                             EPSDT                   EPSDT                EPSDT
    Birth - age 5              30%                    22%                   48%
     ages 6 - 14               32%                    1%                    67%
     ages 15 - 20              14%                     0                    86%
       all ages                28%                    12%                   60%


Our results approximate those recently found by the Oregon Medical Professional 

Review Organization (OMPRO) in a review of Washington Medicaid managed care 

EPSDT performance. The OMPRO used the Medicaid Health Plan Employer Data and 

Information Set (HEDIS), a voluntary standardized performance measurement tool for 

managed care plans, to review immunizations in infants, and EPSDT screens for 

4-6 years old and 12-21 years old. They found that 26 percent of the 4-6 year old 

children and 16 percent of the adolescents received EPSDT services in a 12 month 

period. 


We tested for other variables that might affect delivery of EPSDT services. We find no 

significant differences between HMO and PCCM plans or between large or small 

managed care plans. We find there is no difference in EPSDT performance if a break in 

managed care enrollment occurred. Besides the age of the child discussed above, the 

only variable that is significant is the State’s EPSDT monitoring, which is discussed in the 

next finding. 


The mean age of the children in the sample is 7 years. The sample averaged 16 months 

enrollment in Medicaid managed care. The children averaged 2.75 visits (including .8 



                                              7
EPSDT services) to the managed care plan during the study period.

Medical Record Reviews

Most of the visits Medicaid children make to managed care plans are sick visits, based on
our review of medical records. In a few exceptions, we found these visits were expanded
to become full EPSDT services. 3ut in most cases, only the symptoms that generated the
sick visit were treated. Likewise, we found few visits treating conditions discovered as a
result of a previous EPSDT screen.

As could be expected, documentation of EPSDT services varied greatly between States,
managed care plans, and providers. Frequently, we found more complete EPSDT
documentation when providers used preprinted forms that detail the appropriate services
for a child at a given age. These forms correspond to the State’s periodicity schedule
and are usually provided by the managed care plan to individual providers. One plan
color-coded the forms to make each age cohort distinctive in order to alert the provider
that different services, tests, guidance and observations are required for each age group.

However, many medical records failed to detail all of the EPSDT components. Lead
testing was absent from many records. Frequently, vision and dental examinations do not
appear to be performed, although in some States, dental services are not part of the
managed care contracts. If health education, growth and development and anticipatory
guidance for the child to the responsible adult were provided, they were seldom part of
the medical record. One managed care plan said that in a capitated environment, there
are few incentives for providers to provide the full range of services. Another managed
care plan pointed out that with capitated payments, there was little incentive to report
EPSDT services timely.

The philosophy of some States and managed care plans may work against EPSDT
services being provided. One managed care plan explained it is the parent’s
responsibility to ensure their children receive all the necessary screens. In that plan,
individual physicians do not know what families have chosen them as their primary care
provider until that family makes an appointment for services. One State said that using
primary care physicians as gatekeepers is a way to ease the physician community into
accepting managed care.

State Contract3

As stated in our background, studies show that States vary widely in emphasizing EPSDT
in their managed care contracts. Our survey tends to confirm these earlier findings.
Forty-one States responded to our request for contract information. Nine of these States
do not contract with any managed care plans for services to Medicaid children. We
found 13 States spell out managed care EPSDT responsibilities in detail in their contracts
with managed care plans, and Oregon does the same without mentioning EPSDT by
name. Three States are in the process of revising their managed care contracts. The
other States’ managed care contracts mention the EPSDT requirement without providing


                                             8

specific detail.

E~orts to &mote     EPSDT

Medicaid providers face many obstacles in attracting Medicaid patients for 

non-emergency health care. Barriers include the on-again, off-again nature of Medicaid 

coverage, transient addresses and phone numbers, the high number of “no-show” 

appointments, and convincing parents of the need for preventive care for healthy 

children. Some States specifically require managed care plans to provide transportation 

to patients and conduct outreach activities to overcome some of these barriers. 


In addition to sending reminder postcards and phone calls to parents and providing 

needed transportation to EPSDT exams, managed care plans and individual providers 

have taken many innovative steps to foster EPSDT screens and treatments. One Nevada 

physician distributes coupons for McDonald’s “Happy Meals” to every parent who brings 

in a child for an EPSDT screen. He reports buying more than 500 coupons this year. 

The restaurant sells the coupons to him at a bulk discount rate. Another physician 

provides drug store discount coupons for those receiving their EPSDT exams. One 

managed care plan held a lottery to win a ‘big wheel” bicycle. Chances to win this 

prominently displayed prize were distributed when children came for their EPSDT 

screens. 


Providers routinely distribute promotional material including EPSDT refrigerator 

magnets, coloring books, and coupons for baby shoes and diapers. Managed care plans 

may send a nurse for a personal home visit to newborns. While most of these attractions 

are aimed at infants and small children, one managed care plan is starting a teen health 

plan. 


Managed care plans and school-based health centers are beginning to work together. 

Some States require or encourage coordination between managed care plans and school-

based health centers, community health centers and local health departments in an 

attempt to bring health care services to hard-to-reach populations. 



Children receive significantly more EPSDT services from Medicaid managed care plans
when States inform the managed care plans which children are due for EPSDT

Two States in our sample, Michigan and Nevada, identity children who are currently due
for EPSDT screens to their managed care plans. Michigan notifies their plans by an
electronic file transfer listing all of the children due that month. The State requires each
plan to respond for each child by electronic file transfer by month’s end.

For children enrolled in Nevada’s PCCM, the State sends a listing of children due for
EPSDT screens to the PCCM, who sends notices to the responsible adult for the child
advising of the need for EPSDT testing. They follow up as appropriate. If the State has
not received a bill for EPSDT services within 3 months, phone calls to the responsible


                                              9

adult are made.

A comparison of the EPSDT results in these States to the others in our sample shows
that there is a very strong statistical difference in managed care plan performance.


  Managed Care State   received all EPSDT   received me,   not all EPSDT   -wEPm

  Michigaa/Nevada              54%                           7%                    38%

  All others                   19%                           13%                   68%



Administratively, a large State and a small State, have adapted EPSDT monitoring to
their State’s environment. Michigan’s monitoring affects capitated managed care plans,
while Nevada’s tracks PCCM performance. The approaches they take, while basically the
same, vary in terms of the number of children to be monitored and the systems
sophistication of the States and managed care plans.




                                            10 

                      RECOMMENDATIONS

The managed care philosophy stressing preventive services now to avoid costly expenses
later for medical care complements EPSDT program objectives. Medicaid managed care
plans are potentially very conducive to delivering EPSDT services. Managed care plans
serve as a medical home and as gatekeeper to medical care and emphasize prevention
and wellness for millions of children. Capitated plans especially feature many advantages
over individual providers in being able to provide outreach and transportation to clients.
They benefit from economies of scale and a steady funding stream. However, many of
our findings indicate that managed care plans have not yet realized their full potential in
providing EPSDT services.


The Health Care Financing Administration should revise their EPSDT reporting
requirements and data collection to emphasize the number of children who receive all of
their EPSDT screens in a timely fashion.

Current EPSDT reporting methods obscure the low EPSDT rates we found, especially
for adolescents. The HCFA should revise their EPSDT data collection so States identify
children of different ages who receive all of the required EPSDT screens. This revision
will improve EPSDT data collection for both fee-for-service and managed care programs.
The HCFA and the States should monitor the age groups to determine where progress is
being made and where additional efforts are required.

States currently report only the number of children receiving at least one screen during
the defined time period. Since the EPSDT requirements vary with State and age, revised
reporting data should identify not only the number of children who receive an EPSDT
screen, but also the number of EPSDT screens those children should be receiving.
Presently, EPSDT reporting presents data in a way to suggest that most children receive
EPSDT services. One State advised us that reporting HCFA-416 data “always shows us
over 100 percent. We’ve been stuck at 52 percent forever.” This anomaly occurs
because current reporting overemphasizes the greater number of required medical
services provided to very young children.

We support States using Medicaid HEDIS as a measurement tool to evaluate the nature
of EPSDT services performed in managed care settings. States should be encouraged to
evaluate both HMO and PCCM type plans. Our study shows that more than half the
children enrolled in Medicaid managed care plans receive no EPSDT services, regardless
of plan type.


The HCFA should encourage States to actively notify managed care plans of enrollees
due for EPSDT exams and to follow up if EPSDT services are not rendered shortly
thereafter.



                                            11 

Our study dramatically demonstrates the value added to EPSDT performance when
States continue to track and monitor plan performance at the individual patient level. In
some States, this responsibility may belong at the County level, but regardless, the
technique should be emulated. The techniques used in Michigan and Nevada could serve
as models for States to identify the children due for, and receiving timely EPSDT screens.
Beginning in 1997, Virginia’s Medicaid Management Information System will notify
PCCMs twice annually of children due for EPSDT exams.


The HCFA should work with States to ensure timely managed care EPSDT reporting.

The breakout of managed care EPSDT services from fee-for-service is important. The
HCFA needs specific data to determine whether managed care is living up to its promise
of access and care to children, who represent more than half the total Medicaid
population.

Current State EPSDT reports to HCFA do not distinguish services rendered by managed
care plans. The HCFA collects combined managed care EPSDT and fee-for-service
EPSDT information from States annually. Immunization records may lag behind as well.
In 1994, HCFA discovered that States collect EPSDT data from managed care plans in
inconsistent ways.

All managed care plans should report EPSDT services to States in a timely and uniform
manner. At present, managed care plans subcontract with numerous individual
providers. Consequently, reporting of EPSDT services is inconsistent, not always timely,
and underreporting may occur. Without consistent reporting of EPSDT data,
determining whether States meet participation goals becomes problematic.


The HCFA should emphasize to States the need to define and clarify EPSDT
requirements in their Medicaid contracts with managed care plans.

Our study confirms the findings of earlier studies, including HCFA’s, pointing out the
lack of contractual specificity regarding EPSDT when States contract with managed care
plans to provide Medicaid services. In omitting EPSDT programmatic details from
managed care contracts, States have less leverage in persuading managed care plans to
deliver timely EPSDT services and fewer ways to evaluate individual plan performance.
The HCFA needs to continue working with States to provide examples of effective
contracts.




                                            12 

AGENCY     COMMENT!3

We received comments from HCFA and the Acting Assistant Secretary for Health. 

Their comments are included in Appendices B and C respectively. Both fully agree with 

the recommendations.    The Acting Assistant Secretary for Health suggested additional 

recommendations.    These additional suggestions are quite consistent with the 

recommendations in our report. We suggest that HCFA consider them in developing 

their implementation plan. 


We made appropriate    revisions to the report based on their technical comments. 





                                            13 

APPENDIX          A

  VARIANCETABLE




       A-l
      VARIANCE       AND ESTIMATED 
 CONFIDENCE           INTERVALS



                            Estimate       Standard
                                             Error
Medicaid managed care
children who receive all    28.10%          8.30%     11.83%     44.37%
required EPSDT services
Medicaid managed care
children who receive some   11.52%          1.79%     8.01%      15.03%
required EPSDT services
Medicaid managed care
children who receive no     60.38%         13.37%     47.01%     73.75%
required EPSDT services




                                   A-2 

     APPENDIX          B

HCFA COMMEiNTS ON DRAFI’ REPORT




              B-l
        DEPARTMENT       OF HEALTH   & HUMAN   SERVICES                  Health Care Financing Administration



                                                                         The Administrator
                                                                         Washington, D.C. 20201

              4%     2   9 1997
DATE:

TO: 	         June Gibbs Brown
              Inspector General

FROM: 	      Bruce C. Vladec
             Administrator

SUBJECT: 	 Office of Inspector General (OIG) Draft Report: “Medicaid Managed Care
           and EPSDT,” (OEI-05-93-00290)


We reviewed the above-referenced report that examined the Early aqd Periodic
Screening, Diagnosis, and Treatment (EPSDT) services Medicaid children enrolled in
managed care plans receive.

Our detailed comments on the report recommendations are attached for your
consideration. Thank you for the opportunity to review and comment on this report.

Attachment




                                                B-2
              Comments of the Health Care Financing Administration (HCFA) 

                          on Office of Inspector General (OIG) 

                 Draft Report: “Medicaid Managed Care and EPSDT.” 

                                   (OEI-05-93-00290) 



OIG Recommendation

HCFA should revise its Early and Periodic Screening, Diagnosis, and Treatment
(EPSDT) reporting requirements and data collection to emphasize the number of children
who receive all of their EPSDT screens in a timely fashion.

HCFA Response

We concur. HCFA convened a Workgroup of representatives from the public and private
sectors to assess and recommend changes to the current EPSDT reporting and data
collection tool, the HCFA-416. The Workgroup will focus on, among other issues:
(1) developing an instrument that will collect more consistent, meaningful data from
states regarding the furnishing of EPSDT services, especially services provided under
managed care arrangements; (2) reviewing the effectiveness of periodic&y schedules that
VW by state to determine if there is a better way to measure each state’s participation
goal against the actual periodicity requirement in the state; and (3) determining if Health
Plan Employer Data and Information Set (HEDIS) measures will be a useful tool in
measuring EPSDT services in managed care settings.

It should be noted the current HCFA-416 collects data that identifies children of different
ages. It also uses the periodicity schedule of the American Academy of Pediatrics to
measure the number of screens children should be receiving in order to adjust the figure
(i.e., 6 screens for the less than 1 year old, 50 screens for the 15-20 years old who should
receive one every other year).

OIG Recommendation                                                         .. _

HCFA should encourage states to actively notify managed care plans of enrollees due for
EPSDT exams and follow-up if EPSDT services are not rendered shortly thereafter.

HCFA Response

We concur. We will address this as part of the follow-up activities resulting from George
Washington University’s recently released study of Medicaid managed care contracts, or
as part of the Medicaid Managed Care Team’s outreach efforts.




                                                 B-3 

 Page 2

 OIG Recommendation

 HCFA should work with states to ensure timely managed care EPSDT reporting.

 HCFA Resuonse

We concur. This issue has been an ongoing concern of HCFA and wiIl be addressed by
the Workgroup mentioned above.

OIG Recommendation

HCFA should emphasize to states the need to define and clarify EPSDT requirements in
their Medicaid contracts with managed care plans.

HCFA Resnonse

We concur. In addition to encouraging states through ongoing technical assistance,
HCFA will continue to encourage states through its review and approval of new and
existing waivers to include speci& EPSDT programmatic requirements in their contracts
with managed care programs.

Technical Comments

Page 2, Paragraph 1 - The enrollment figures published in the (1995) Medicaid Managed
Care Enrollment Report contain double counts. The figures have been revised to
estimate unduplicated figures. As a result, total Medicaid managed care enrollment as of
June 30,1995, is estimated to be 9.8 million., or 29.4 percent of the total Medicaid
population. This 9.8 million figure represents a growth of about 2 million beneficiaries
from the previous year.
                                                                            .. _
HCFA recently published the 1996 enrollment figures. The total Medicaid managed care
enrollment as of June 30, 1996, is reported to be 13.3 million (see HCFA’s Home Page
on the World Wide Web for the full report).

The reference to managed care plans to which people are being enrolled should be
changed to managed care programs. The term programs more accurately describes the
variety of systems into which people are enrolling. Of the 403 Medicaid managed care
arrangements in 1995,48 are primaty care management programs and 355 are some form
of managed care organization.




                                               B-4
 Page 3

 Page 2, Paragraph 2, frost sentence - We suggest the following to replace the first
 sentence: “Managed care aims to reduce the utilization of services that are not medically
 necessary, lower health care costs, increase access to services, and provide a vehicle to
 better monitor the quality of care provided to beneficiaries.”

 Page 2, Paragraph 3 - Managed care plan is more accurately managed care program.

Page 2, Paragraph 4 - Quality assurance activities at the Federal, state government, and
plan levels are designed to ensure Medicaid beneficiaries are provided access to the
services to which they are entitled and that providers and managed care organizations are
fXfilhng their contractual obligations. This point should be made more clearly in the
discussion of fraudulent activities.

Page 3, Paragraph 1 - Mention should be made that the contracts discussed in the 1995
Children’s Defense Fund study were from 1991. Since that time, increased attention has
been focused on child health, which is likely reflected in newer contracts. In the second
sentence, please change showed to indicated, since no contract language was provided in
Integrating EPSDT and Medicaid Managed Care.

Page 4, Paragraph 2 - Managed care plan is more accurately managed care program.

Page 7, Paragraph 3 - The Medicaid HEDIS was issued by the National Committee for
Quality Assurance, not HCFA.

Page 9, Paragraph 4 - Federally Qualified Health Centers (FQHCs) have protections not
realized by school-based health centers, community health centers, and local health
departments. States are required to provide Medicaid beneficiaries with access to
FQHCs, which is not the case for the other entities. Either this distinction should be
clear, or FQHCs should be removed from this provider list.

Page 9, Last Paragraph - Nevada has a Health Maintenance Organization program, which
means the state pays managed care organizations a capitated fee to provide a defined set
of services to the Medicaid beneficiaries enrolled in the plans. In the description of
Nevada’s approach, mention is made of bills not being received by the state. In a
capitated situation, bills are never received by the state. Please clarify Nevada’s
approach.

It would be useful if the OIG report indicates what age groupings would provide more
useful information than those currently used.

It would be more accurate if the report used managed care program rather than managed
care plan.



                                             B-S 

                       APPENDIX             C

k%%STANT   SECRETARY    FOR   HEALTH   COMMENTS   ON DRAFT   REPORT




                                 C-l
         DEPAkTMENTWHEALTHAND-S=w-                                          Offica of the socwtrry


                                                                     As&ant Se~crutmryfor Hodth
                                                                offiwofPublkcarldmd
                                                                         Wmhiqton   D.C. 20201
   MAR27l997

 TO: 	         June QibbeBrow
               In8pwtorGulcral

FROhfz         Acting Awhtant Sac-      forHealth

SUBJECT 	 OIG Drd Repoh “Medicaid Managed Care and EPSDT”
               OBI-05-93-00290

Thankyou fortheoppommityto review andcommenton theinitialdraf?lbspectionreport:
f’hfedicaidManagedCareundEPSDT’.O&OS-9340290. Thestudymakw an important
contniiutionto the evolvinglmowlalge of theu8eof man@ camplansin providingnewswry
prcvmti~e and treatmat tices   to Medicaidrecipients.

I havelimitedmy commentato twoapccificareaa:(1) Report Findings; and (2) Additional
Recmmaxlad~.     Ovexall, I agree fhlly with your recommuxi8tiom aud have inoludedscverai
cI~on88ndariditi~         ttcainm~ons        for yau conaidadion. I look Wwml to your
Mm-




                                 U.S. Publk Hedth Suvb


                                        c-2
 Page 2 - Ms. June Gibbs Brown

        Was the study limited to managed care or PCCM providm that were under contract, or
        o&wise expectal, to provide the f%Uarray of EPSBT services? If not, what procedures
        were used to determine additional services acquiredby be&cities outside of the
        designated provida or plan?

        Second, various pxwentive sdgs             arc not well documented and are difEcult to
        identie in the medical record. For example, health education andcoweeliag are
        commoaly not documulted in the medical record during clinic vilJi&especially for
        sensitive or illegal activities. This does not. howeva, indicate 8 total d      of the8e
       6ervice6.The rtxamnendation of collecting f&rre dataon am                    BPSDT
       rcportillg for?&izlcludingutlls ofhealth e&at-i* courl8eHn&d rmtiw
       guidaucc, fbr all Msdioaid tnaeficisrics (m&r 21) would solve this rcp@g problem.

3, 	    Intereetingly, no st&tical differarces were obsav&l between maoaged OQCand PCCM
       beneficiaries. I would have hypothesized that PKM pzuvidar had a higher mte of
       suocws due to the financial and treatmentincentives mt        in the fbc-far_arvice
       reimbursementsystem. This tiding raises iasuear&al to the efIisctleof the Stati: or the
       individual in the acquisition of such BcIvicts.The man@ care plan and Strte bear
       direct msponaibifity in providing many of these caabiing services.

       A8part of your evalt&ioll of effbrta used by providers to iucrmcp8ticnt compliance,
       were you able @mihte the use of tmqof@on ~c&J& locrbkn df pmvider, or
                               that may dvcrstly effect m
       iltxamibility of aeEviH+s                                to &X+ceB?




                                          c-3
     Page 3 - Ms. June Gibbs Brow



     1. 	    The advantages of managed care, as part of the introductoqr paragraph of the
             Recommendation’s section, have yet to be reahed or demonsti4          specifically,
             outreach programs, transportation services, and stressing preventive se&es to avoid
             “costly expense8late?’ fir medical care. I nxomm end revisions bared on our curznt
             state of knowledge on these issues,

 2. 	        In Recommendation #1, require additional data r+ting within specific catcgorier:of
             BPSDTClQviccafor each age group. These categmiea include: complcta phy+cal exam;
             vision and he&n& dental; dcve~opmentaland bahpvioral screaning; PI-O+UW
             (laboratory and inmnhtions);  md health education and anticipatory guidance.

3. 	        In Recommedation #!2,the State must continue to not@ beneficiari= of the availability
            of EPSDT services, how to obtain them, and transportation and scheduling assistance.
            Additionally, if the State contractason&es to partial providers, they must develop a
            mechanism to coIlect EPSDT data from all 8ourcc.11  of cam; thus, demonstrating
            compliance with providing the fill range of EPSDTservices.

4. 	        In Rccummendation #3, the development and implem&ation of a aandsrdized reporting
            form is vital to the State’8and HCFA’ecflbrts in monitoriq ~qticipotiop goal+ The lack
            of mtaPingfulhealthinfhuhion is fiutk complicated by theloss of l@dipsid
            reimbureemant
                       claimafilestlnnu@theuseof caphtai paymentpqjram& Thi6 form
            6hould include the broai range of wxvicea availabk to eligibk bu~eficiaiics, as dimwed
            above.~lemcntltionofsuchrEonnshwldbelinLc4toHCPA’r1915(b)or111s
            Dt?momdoll w8ivern.
5.




6.




 .



                                                                                  7




                                               C-4 

